Bizer & DeReus
3319 St. Claude Avenue, New Orleans, LA 70117
Andrew D. Bizer, Licensed in LA, NY
Garret S. DeReus, Licensed in LA, MO
Emily A. Westermeier, Licensed in IL, LA

phone: 504.619.9999
fax: 504.948.9996
www.bizerlaw.com

VIA FEDEX DELIVERY
September 18, 2019
Supreme Court of the United States
Office of the Clerk
1 First Street, NE
Washington, DC 20543-0001
Re:

City of Trinidad, Colorado v. Stephen Hamer,
Case No. 19-283

Dear Clerk,
Our firm represents the Respondent, Mr. Stephen Hamer, in the above-titled case. The
petition for a writ of certiorari was placed on the docket on September 3, 2019, and according to
Supreme Court Rule 15.3, a brief in opposition to the petition is due by October 3, 2019. We are
writing to formally request an extension of thirty (30) days, or until November 2, 2019, in which to
file our brief in opposition.
Pursuant to Supreme Court Rule 30.4, good cause exists for Mr. Hamer's requested
extension. Undersigned counsel operates a small law office with only three full time attorneys and
limited support staff. Undersigned has to balance the preparation of Mr. Hamer's opposition to the
City of Trinidad's Petition for Writ of Certiorari with their existing clients and case load.
Additionally, this is the first-time undersigned has represented a client before the Supreme Court,
which necessarily entails greater familiarization with the Supreme Court rules and procedures.
Finally, counsel for the City of Trinidad has been contacted and does not object to the requested
extension.
Please note that Respondent's attorneys have not yet been admitted to the Supreme Court.
However, the attorney applications and admission fees have been mailed, and the admissions are
currently pending.
We thank you for your consideration of this request.
Very t ly yours,

RECEIVED
SEP 1 9 2019
cc:

Marni Nathan Kloster

OFFICE OF THE CLERK
SUPREME COURT, U.S.

11111111111Mift

Garret S. DeReus

